<html>
<title> - UPCOMING ELECTIONS IN THE WESTERN HEMISPHERE: IMPLICATIONS FOR U.S. POLICY</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]








  UPCOMING ELECTIONS IN THE WESTERN HEMISPHERE: IMPLICATIONS FOR U.S. 
                                 POLICY

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         THE WESTERN HEMISPHERE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 10, 2018

                               __________

                           Serial No. 115-105

                               __________

        Printed for the use of the Committee on Foreign Affairs



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______
                                 
                         U.S. GOVERNMENT PUBLISHING OFFICE 

28-179 PDF                     WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                LOIS FRANKEL, Florida
SCOTT PERRY, Pennsylvania            TULSI GABBARD, Hawaii
RON DeSANTIS, Florida                JOAQUIN CASTRO, Texas
MARK MEADOWS, North Carolina         ROBIN L. KELLY, Illinois
TED S. YOHO, Florida                 BRENDAN F. BOYLE, Pennsylvania
ADAM KINZINGER, Illinois             DINA TITUS, Nevada
LEE M. ZELDIN, New York              NORMA J. TORRES, California
DANIEL M. DONOVAN, Jr., New York     BRADLEY SCOTT SCHNEIDER, Illinois
F. JAMES SENSENBRENNER, Jr.,         THOMAS R. SUOZZI, New York
    Wisconsin                        ADRIANO ESPAILLAT, New York
ANN WAGNER, Missouri                 TED LIEU, California
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia
JOHN R. CURTIS, Utah

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

                 Subcommittee on the Western Hemisphere


                    PAUL COOK, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ALBIO SIRES, New Jersey
ILEANA ROS-LEHTINEN, Florida         JOAQUIN CASTRO, Texas
MICHAEL T. McCAUL, Texas             ROBIN L. KELLY, Illinois
MO BROOKS, Alabama                   NORMA J. TORRES, California
RON DeSANTIS, Florida                ADRIANO ESPAILLAT, New York
TED S. YOHO, Florida                 GREGORY W. MEEKS, New York
FRANCIS ROONEY, Florida



























                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Ms. Katya Rimkunas, deputy director, Latin America and the 
  Caribbean, International Republican Institute..................    11
Mr. Michael Svetlik, vice president of programs, International 
  Foundation for Electoral Systems...............................    23
Mr. Jim Swigert, senior associate and regional director, Latin 
  America and Caribbean Programs, National Democratic Institute..    39

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Paul Cook, a Representative in Congress from the 
  State of California, and chairman, Subcommittee on the Western 
  Hemisphere: Prepared statement.................................     3
Ms. Katya Rimkunas: Prepared statement...........................    14
Mr. Michael Svetlik: Prepared statement..........................    25
Mr. Jim Swigert: Prepared statement..............................    41

                                APPENDIX

Hearing notice...................................................    62
Hearing minutes..................................................    63
Written responses from the witnesses to questions submitted for 
  the record by the Honorable Paul Cook..........................    64

 
                   UPCOMING ELECTIONS IN THE WESTERN
                      HEMISPHERE: IMPLICATIONS FOR
                              U.S. POLICY

                              ----------                              


                      WEDNESDAY, JANUARY 10, 2018

                       House of Representatives,

                Subcommittee on the Western Hemisphere,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:00 p.m., in 
room 2172, Rayburn House Office Building, Hon. Paul Cook 
(chairman of the subcommittee) presiding.
    Mr. Cook. A quorum being present, the subcommittee will 
come to order. And I would like to now recognize myself for an 
opening statement.
    I would like to begin this first subcommittee hearing of 
the Second Session, 115th Congress, by extending a warm welcome 
to our returning members on the subcommittee. I am especially 
grateful for our ranking member, to the left of me here, and 
especially the bipartisan nature of this subcommittee. And I am 
excited to work together with each of you this year to conduct 
oversight and then craft policy to advance U.S. interest in the 
Western Hemisphere.
    I also look forward to working with the Trump 
administration to advance the national security strategy in the 
days ahead, especially as it relates to addressing the many 
challenges facing Latin America and the Caribbean. This is an 
exciting year for regions, 12 elections--oh my God--12 
elections will take place in 9 countries, including 
Presidential elections in Costa Rica, Paraguay, Colombia, 
Mexico, Brazil and Venezuela. Raul Castro has also announced he 
will step down as official leader in Cuba. Although, the next 
steps remain unclear. Each of these events will test the state 
of democratic institutions, freedom and rule of law in the 
region. And we must never take these principles for granted.
    Approximately 350 million voters across Latin America and 
the Caribbean will have the opportunity to elect new leaders 
and affect the political trajectory of many countries this 
year.
    It is about the size of your district. Isn't it?
    The stakes are high for the citizens, as well as for U.S. 
interests in the region. Job and economic growth depend on 
strong democratic institutions, mutually beneficial bilateral 
relationships, and secure conditions that welcome business 
investments. However, the security situation remains tenuous 
throughout the region as transnational criminal networks 
operate with impunity. And illicit activities, including drug 
trafficking, continue affecting our country.
    Further, unresponsive governments in an endless sea of 
corruption scandals have eroded public trust in traditional 
democratic institutions and in leaders who do it not face 
accountability for their actions. Consequently, many countries 
are facing an apathetic electorate ahead of their elections. A 
recent poll by Vanderbilt found the lowest support for 
democracy among citizens in the region since 2004. Fewer than 
55 percent of Mexicans and Brazilians believe Democracy is the 
best political system. A little scary.
    Such views diverge sharply from what the United States and 
other freedom-minded countries in the region agreed to in 2001 
with the adoption of the Inter-America Democratic Charter, 
which states that representative democracy is indispensable for 
the stability, peace, and development of the region.
    The ability for citizens to have access to credible 
information about candidates and platforms, to vote freely and 
fairly without interference, and to have confidence that public 
institutions remain accessible and transparent when considering 
election results is vital to the success of democracy. 
Likewise, international electoral observation missions play a 
critical role in providing impartial verification of election 
results and strengthening confidence in democratic 
institutions. I applaud Brazil, Mexico, Costa Rica, and 
Paraguay for welcoming OAS observation missions and encourage 
all the countries holding elections this year to allow for 
robust international and domestic observations in their 
elections. In addition, these elections have the potential to 
alter the political trajectory of the region and impact U.S. 
security and economic interests.
    Brazil's elections could affect critical economic reforms. 
Colombia's elections may influence the fate of the peace deal 
and the country's approach to reducing coca production. And 
Mexico's elections might impact its historic energy reforms and 
the approach to the country's ongoing security issues.
    We also continue to deal with the challenges from regimes 
in our hemisphere as Venezuelan President Nicolas Maduro has 
moved to disqualify the country's main opposition parties from 
participating in Presidential elections. And Cuba continues to 
deprive the Cuban people of any form of free and fair elections 
ahead of Raul Castro's anticipated handover of power later 
this--well, it is close to New Year's. Regardless of whatever 
challenges these countries may be facing, the United States and 
other democratic countries in the region have a role to play in 
supporting democracy and the citizens' ability to choose their 
leaders freely.
    I look forward to hearing from our distinguished panel of 
experts whom each has personal experience promoting democracy, 
increasing government accountability and transparency, and 
strengthening the capacity of democratic actors throughout the 
region.
    With that, I turn to my ranking member for--or our ranking 
member--actually, it is your ranking member--a very good friend 
of mine who is a great asset to the committee and a good 
friend. So I recognize him.
    [The prepared statement of Mr. Cook follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                              ----------                              

    Mr. Sires. Good afternoon everyone and Happy New Year. 
Thank you to our witnesses for being here today. And thank you 
to our chairman for holding this important hearing. I look 
forward to working in 2018 with the chairman and continue the 
bipartisan approach that we have had here for many, many years.
    You know, an important and timely hearing is taking place 
to look at the upcoming elections throughout the region in 
2018. There are many elections slated for this calendar year in 
some of the most consequential countries in the Western 
Hemisphere. Some of the United States' largest trading partners 
and strongest allies will see new Presidents in the coming 
year. And I hope we can continue to build on our partnerships 
with the incoming administration.
    Unfortunately, some countries, like Cuba and Venezuela, 
have elections in name only. The authoritarian grips of Castro 
and Maduro over the people is absolute, and they refuse to 
allow the will of the people to be heard. It is critical that 
we do everything we can to ensure that, in each and every 
election, the will of the people is heard, and elections are 
conducted peacefully, safely, and freely. Free and fair 
elections create trust between the population and the 
government for the most transparency in government functions 
and can allow a country to thrive. Hampering these efforts can 
bring instability, violence, corruption, and economic decline 
to populations, while elites thrive at the expense of everyone 
else.
    The past year has shown that the entire region is grappling 
with a fight against corruption. No matter where a candidate is 
on the political spectrum, they have been asked by the voters 
how they plan on rooting out corruption, reducing crime, 
improving economic stability and regaining the trust of the 
general public. The U.S. does not have a favorite candidate or 
outcome. We only want to ensure that democracy is upheld 
throughout the region so that people's human rights are 
respected and we, as a hemisphere, can continue to thrive. It 
is my hope that we can learn today from our witnesses what more 
can be done both by the U.S. Government and countries around 
the region to strengthen institutions throughout the region to 
ensure that elections are conducted freely, fairly, and 
peacefully. Thank you.
    Mr. Cook. Thank you, Congressman Sires.
    Now I am going to turn to our distinguished member of the 
Foreign Affairs Committee, Congresswoman Ileana Ros-Lehtinen.
    Ms. Ros-Lehtinen. Thank you so much, Chairman Cook.
    Thank you to our Ranking Member Sires for holding this 
important and timely hearing. With the Western Hemisphere set 
to see many key Presidential, parliamentary, and municipal 
elections this year, as you have pointed out, Mr. Chairman, 
that will have far-reaching implications, this is an 
opportunity to examine the landscape, to see how elections may 
impact the region and our own interest.
    And, sadly, one place we know we won't see elections, as 
the chairman and the ranking member have pointed out, is in my 
native homeland of Cuba. The Cuban people continue to be denied 
the right to choose their own leaders. The system in Cuba is a 
farce. The President is selected by the National Assembly, and 
the National Assembly, oh, that is selected by the regime in 
what can only be described as a vicious circle of corruption. 
Raul Castro claims that he will step down and allow a 
transition of power in April. He has already pushed that back 
once.
    The reality is, even if the so-called transition happens, 
the balance of power will remain with Raul Castro for as long 
as he wants it, and the people of Cuba will continue to suffer. 
The U.S. must not give Castro any concessions until we see the 
regime meet basic conditions, like the release of all political 
prisoners and prisoners of conscience. The people must be 
allowed to exercise the fundamental and basic human rights like 
freedom of speech, freedom of expression, and to have free, 
fair, and transparent elections that are monitored by 
international observers.
    And then, of course, we have Castro's protege in Venezuela: 
Maduro. Venezuela is set it to hold sham elections sometime in 
December, but with Maduro in power, little is expected. Even if 
elections are held, we know that it will be a fraudulent 
process--they all have been--just as the municipal elections 
were last year. The people of Venezuela have been pleading for 
a new democratically elected government. In 2015, when the 
opposition won in the National Assembly, what did Maduro do? He 
stripped it of any legislative power. Now Maduro's grip on the 
Supreme Court and the Supreme Electoral Tribunal make it 
impossible for the voice of the people to be heard at the 
polls. When the people protest, they face beatings, arrests, 
and even death.
    The administration has taken action against Maduro regime 
officials, but there is so much more that we can do. There is a 
severe food and medicine shortage in Venezuela as a result of 
Maduro's failed and oppressive policies, and that is why 
Ranking Member Eliot Engel and I introduced, and the House 
passed last month, the Venezuela Humanitarian Assistance and 
Defense of Democratic Governance Act. Our bill mandates a 
strategy from our agency, USAID, to provide humanitarian aid to 
the people of Venezuela. And the bill also aims to fight 
widespread corruption among Venezuela Government officials and 
I hope that our colleagues in the Senate will take action and 
pass this measure so that we can help those who are in urgent 
need.
    This year, we will also see important elections in Brazil. 
With public opinion, as you pointed out, Mr. Chairman, at an 
all-time low, increasing public debt, high-profile corruption 
allegations reaching the highest levels in Brazil, the country 
is at a crossroads and faces a critical election. At the center 
of the corruption scandal is the Odebrecht case. Not only has 
it implicated Brazil's politicians, but it has also implicated 
high-profile business executives. Unfortunately, the Odebrecht 
corruption is not limited to just Brazil. It has incriminated 
more than half of the countries in Latin America and many 
current heads of state. It is shocking.
    In December 2016, our Department of Justice reached a plea 
agreement with Odebrecht for at least $3.5 billion of global 
penalties to resolve charges of bribery and what has amounted 
to be the largest case of its kind in history. And what I want 
the Department of Justice to do is to name the officials who 
are implicated in this because many of those officials will be 
standing for elections. And the people will not know that those 
people they are voting for, those have been subject to bribery, 
not just allegations, but factual cases of bribery.
    And I will end with Colombia. Colombia is at a pivotal 
point in the aftermath of agreement between the government and 
the terror group FARC. Colombia still has a ways to go, but it 
is often overlooked, and it is a critical one. We have so many 
national security interests.
    Thank you, Chairman Cook. Thank you, Ranking Member Sires, 
for holding this important hearing. Thank you.
    Mr. Cook. Thank you, Congresswoman.
    With that, I am going to turn to our member from New York, 
Congressman Meeks, for an opening statement.
    Mr. Meeks. Thank you, Mr. Chairman.
    Thank you, Ranking Member Sires.
    So much of the analysis I have been reading on the Western 
Hemisphere lately conveys concerns about democratic 
backsliding. The tendency to view developments that way is 
understanding in the context of increased visibility of 
corruption in the region and the persistence of violence and 
inequality. But we contend with all of this at a time when most 
Latin Americans will be in a position to cast a vote this year 
in highly consequential elections. As someone who has been 
actively engaged in trying to support and advance collective 
hemispheric interests, I don't see a region with democracy at 
risk. Rather, I see a region with democracies that are being 
tested and compelled by citizens of various nations. And in the 
process, they are maturing and being fortified.
    We have moved beyond the extreme political volatility and 
vulnerabilities of the 1980s. Latin American democracies have 
shown that they have staying power, with tools such as stronger 
judiciaries and increased visibility through the press and 
technology. Economic reforms have strengthened economies. And 
so much so that citizens now, more than ever, are in or 
entering the middle class and the mainstream. They are using 
their voices and purchasing power to demand transparency and 
accountability in their governments. Americans know, perhaps 
more than any other citizenry, that democracy is all evolving 
and must never be taken for granted. We could not look at the 
rise of populism and anti-establishment sentiment in Latin 
America and see the trend as democracy faltering unless we are 
willing to say the same about our own country.
    On the contrary, those same trends in the electorate here 
in America and throughout the hemisphere can be viewed as an 
opportunity to make sure we never neglect democratic 
institutions, which is absolutely key.
    I am glad to see that we have NDI represented here today. 
And I can recall working closely with Mr. Swigert and his NDI 
colleagues in Colombia on strengthening democratic 
institutions, particularly as they are related to African-
Colombians and indigenous communities that have historically 
been disenfranchised. Afro-Colombians are more likely to live 
in remote and marginalized communities in Colombia. They are 
more likely to have many disadvantages that have--than I have 
time to articulate. But with their collective efforts to 
exercise their democratic rights, strengthen institutions and 
demand a seat at the table, African-Colombians in indigenous 
communities are making progress. Colombian elections in recent 
years demonstrate that, despite hardships, African-Colombians 
are showing up at the ballot box. And I am encouraged by that. 
I am also encouraged by Brazilians who are demanding greater 
transparency in their government. Similarly with elections on 
the horizon, Mexicans are pressing for a change. They're not 
just satisfied with what is. That is what democracy calls for, 
the people's voices to be heard. And perhaps one of the most 
democratically vulnerable nations right now in our hemisphere 
is indeed Venezuela. Here is yet another example of the 
importance of the United States not simply condemning a nation 
but rather working directly with our partners to do all we can 
to strengthen institutions so that the people can exert their 
will in democratic countries.
    The United States alone--I talked about this at our full 
committee hearing, that I have not seen any sanctions work 
where they are unilateral, but multilateral sanctions can make 
a difference. And so the United States alone cannot and will 
not make a difference in Venezuela. It is regional 
organizations like the OAS, and our allies and partners, that 
must be a part of any effort to help the people of Venezuela. 
There is still space for political opposition parties in 
Venezuela. And to that, I have hope. I think too often we reach 
for condemnation when what is most necessary is the often quiet 
and underappreciated work of diplomats and strategic leaders 
who understand that a hemisphere that we all live in, are all 
critically linked.
    So I look forward to hearing from our witnesses today about 
the upcoming 2018 elections, how they fit into the broader 
scope of democratic trends in the hemisphere, because as the 
saying goes: We are as strong as our weakest link. And I want 
to thank the chairman and the ranking member for this very 
timely and important hearing. And I can't wait to hear the 
testimony of our witnesses. And I yield back.
    Mr. Cook. Thank you very much, Congressman.
    I just want you to check the panel here: We have got 
Florida, Florida, Florida, Florida. And I had to make a ruling 
that they he could not pass out free oranges to influence your 
testimony, because the best oranges are from California. But 
saying that, I will now recognize Congressman DeSantis.
    Mr. DeSantis. Thank you, Mr. Chairman.
    I just wanted to make one comment. Last month, the 
President made a historic decision to recognize Jerusalem as 
Israel's capital. It has been something that has been very 
popular in the United States. Many Presidents have promised it. 
It was something that people warned may cause repercussions in 
the Arab world, but it really hasn't happened. Part of it is 
because we are an 800 pound gorilla and a lot of those 
countries need us more than we need them, particularly with the 
specter of Iran. And so, as courageous of a decision as it was, 
it is much more difficult for some smaller countries to make 
the same decision.
    But I just wanted to commend Guatemala for announcing 
recently that they are going to move their Embassy in Israel to 
Jerusalem and that they are going to recognize Jerusalem as 
Israel's eternal capital. They have stuff to lose because as a 
very small country, how the Arab League reacts to them is 
probably going to be different than how the Arab League would 
react or has reacted to the United States. So I think it is 
important for us in America to say to Guatemala: We support 
you. We commend your courage in making that decision, and we 
hope other countries in Latin America and throughout the rest 
of the world will follow suit very shortly.
    With that, I yield back.
    Mr. Cook. Thank you very much.
    With that, I turn to Congressman Rooney for an opening 
statement.
    Mr. Rooney. Thank you, Chairman Cook. Thank you, Ranking 
Member Sires. It is a real honor and pleasure to see 
distinguished presenters here today.
    I just want to make a couple of comments on things I am 
thinking about. I spent a lot of time in Latin America. You 
know, back in 2006, Peru took a different direction and tried 
it our way, and it has worked out pretty well for Peru, free 
enterprise and the rule of law. My friend Ray Hunt spent a $\1/
2\ billion on an LNG plant down there. It shows that investment 
will follow good government. Now we have the Pacific Alliance, 
you know, with Colombia, Peru, Chile, and Mexico, and I believe 
soon to be Panama. I think those are green shoots for Latin 
America. And we recently have the Panama Canal completion and 
the election of Juan Carlos Varela to replace a very, very 
corrupt Ricardo Martinelli.
    On the other hand, we still have Bolivia, Ecuador, and 
Venezuela. Venezuela is descending into total chaos. The 
average Venezuelan I think we learned here at Chairman Cook's 
subcommittee hearing has lost 8 kilos in the last year, and we 
have Nicaragua somewhere in the middle ground. This may be 
controversial for some of my colleagues from Florida, but 
having done business in Nicaragua and knowing many private 
sector people, Ortega is a complex guy. He is a horrible, 
authoritarian crook who runs drugs and sucks up to Iranians. 
But at the same time, the private sector loves him, employment 
is down, and less than 500 people have immigrated from 
Nicaragua in the last couple of years. I don't think I've ever 
seen a greater dichotomy from an authoritarian ruler who takes 
care of the private sector.
    So just a few things that I was thinking about to kind of 
frame the discussion. I appreciate you all being here. And, 
Chairman, thank you for holding this hearing.
    Mr. Cook. Thank you very much.
    Before I recognize our panel with your testimony, I am 
going to try to explain the lighting system in front of you. 
Each have 5 minutes for your opening statement. When you begin, 
the light will turn green. If you are color blind, we are all 
in trouble. When you have a minute left, the light will turn 
yellow. And when your time has expired, the light will turn 
red. These are the instructions that they give me so I won't 
screw up this. I ask that you conclude your testimony once the 
red light comes on, please.
    After our witnesses testify, members will have 5 minutes to 
ask questions. I urge my colleagues to stick to them. Our first 
witness to testify will be Ms. Katya Rimkunas, and she is the 
deputy director of Latin America and the Caribbean at the 
International Republican Institute, known as IRI. And she leads 
and manages programs to strengthen democratic institutions and 
processes in 15 countries and oversees the institute's 
Washington base and regional staff. Prior to joining 
International Republican Institute, she worked in the office of 
Senator John McCain.
    Our second witness to testify is Mr. Michael Svetlik, the 
vice president of programs at the International Foundation for 
Electoral Systems. In this role, Mr. Svetlik provides policy 
and programming guidance to the international operations that 
include electoral assistance and democratic institution 
building in over 30 countries. Prior to his position, he had 
served as the senior director of programs regional director for 
Europe and Asia at IFES and was a senior lecturer at the 
National School of Public Administration in Warsaw and served 
as a Peace Corps volunteer in Poland.
    Our last witness to testify will be Mr. Jim Swigert, senior 
associate and regional director for Latin American and 
Caribbean programs at the National Democratic Institute, NDI. 
In this role, he supports democratic development by 
strengthening political parties, civil organizations, 
parliaments, safeguarding elections and promoting citizen 
participation, openness, accountability in government. That is 
a real mouth full to carry out all those things. Wow. Before 
joining NDI, this gentleman served 30 years as a career 
diplomat with the U.S. Department of State, serving Embassies 
in Latin America and Europe. He also worked on the staff of 
former chairman of the Foreign Affairs Committee, 
Representative Dante Fascell.
    With that, we will now begin, and Ms. Rimkunas, welcome 
aboard. You can begin your testimony. Thank you.

STATEMENT OF MS. KATYA RIMKUNAS, DEPUTY DIRECTOR, LATIN AMERICA 
     AND THE CARIBBEAN, INTERNATIONAL REPUBLICAN INSTITUTE

    Ms. Rimkunas. I thank you again for the opportunity to 
testify in the upcoming elections taking place in Latin 
America. Twelve countries will hold elections in 2018, and they 
will do so against the backdrop of high level corruption 
scandals, stagnant or minimal economic growth, sustained high 
levels of violence, and declining support for democracy.
    Disaffection with democracy and growing citizen 
dissatisfaction with the political establishment is a dangerous 
mix that could influence the outcome and legitimacy of various 
elections. If elections are badly managed, this also has the 
potential to undermine public confidence and worsen the 
political situation. With all 12 countries experiencing 
elections are important, I will touch upon a few that could 
have far-reaching repercussions.
    In Mexico, citizens are increasingly fed up with what they 
perceive to be systematic and entrenched corruption that has 
infected all levels of government and affected their financial 
bottom line. The national anticorruption system, the SNA, which 
was created in 2016, serves as a coordinating agency between 
the government agencies and civil society in order to 
strengthen collaboration in the fight against corruption, but 
despite the progress it has made, the culture of transparency 
that it seeks to promote has yet to filter through to the rest 
of government.
    The next President of Mexico will have the opportunity to 
lead the fight against corruption by better supporting the SNA. 
Mexico has also been plagued by some of the region's highest 
levels of crime and violence. This violence also spills over to 
electoral periods. In a little over a month, 11 politicians, 5 
of whom aspire to run for office, were murdered. While violence 
and crime is a multifaceted issue with many causes, some 
Mexicans blame the weak and partial implementation of judicial 
reform set in motion in 2008. This year's elections will 
determine whether these reforms are fully implemented or 
scrapped altogether.
    Mexico's National Electoral Institute needs assistance with 
combatting disinformation, international observation missions, 
and post-election support to enhance legitimacy. Mexico's 
special prosecutor for the attention of electoral crime, one of 
the institutions that helps with the Federal electoral process, 
has also requested international assistance with electoral 
observation.
    In Colombia, the next President will have the difficult 
task of implementing the peace agreement reached with the FARC 
and carrying out the reforms promised. This will not be easy as 
there is a general dissatisfaction with the progress in 
implementing the agreement. There is increased unrest in 
communities where citizens feel that the government has failed 
to deliver on its promises. These communities, often in rural 
areas and post-conflict zones, have local governments which 
tend to be disconnected from the central government and have a 
lower capacity to govern. Yet they are charged with the 
implementation of a lot of these reforms.
    In order to do this successfully, local governments must 
also be able to communicate and coordinate with their Federal 
Government colleagues. It is vital to support increased 
government capacity in these rural communities and help to open 
up channels of communication between different levels of 
government.
    Colombian elections are historic, as the FARC will 
participate for the first time. Under the peace agreement, they 
are guaranteed at least 10 seats in Congress for the next two 
elections. While the FARC's organization and influence in rural 
areas could help them in the elections, the group remains 
vastly unpopular on the national level.
    In Venezuela, President Maduro could schedule the 
Presidential elections for as early as the first quarter of 
this year to consolidate power prior to further deterioration 
of the economy. Maduro has taken steps to ensure his victory in 
the elections by banning the main opposition political parties 
from running. The last few elections show how far the 
government is willing to win, including the consolidation, 
closing, and late move of electoral precincts to confuse and 
discourage voters, manipulate votes, and use and abuse 
government resources and benefits to essentially hold votes 
hostage. These techniques will likely be used again for the 
elections in addition to an electoral council packed with 
government cronies and government control over the media, all 
of which leaves little chance for legitimate free and fair 
electoral processes, and it discourages voters from 
participating.
    In order to achieve a free and fair electoral process, the 
government would at minimum have to roll back all the 
structural obstacles it has put into place, including changing 
the electoral council to provide for balanced presentation of 
the opposition and allow for domestic and international 
electoral observations.
    In Cuba, Raul Castro is set to step down in April. The road 
to selecting a new President is an election in name only. The 
Cuban Government has long asserted its power to ensure complete 
control over the process in its outcome. And these elections 
are really no different.
    The National Assembly will elect a new President who is 
expected to be current first Vice President Miguel Diaz-Canel. 
However, Castro is expected to remain the head of the Communist 
Party, thus retaining most of the decision making power on the 
island. Some suspect that Castro may try to maneuver his son, 
Colonel Alejandro Castro Espin, into the Presidency. However, 
he is not part of the upper ranks of the Communist Party, 
military or government, nor is he a member of the National 
Assembly, although that could change with the upcoming 
selection of new National Assembly members.
    In the tightly controlled and repressive environment, 
Cubans continue to demand the opportunity to control their 
destinies. Cuban youth especially are increasingly pessimistic 
about their futures, disconnected from the regime, and want to 
leave their country. The U.S. should support programs that 
provide outlets to these disaffected youth and civil society 
actors. Additional assistance to increase the island's 
connectivity with the outside world and within the island is 
also needed.
    And I would be remiss if I didn't quickly mention El 
Salvador's legislative and local elections taking place in 
March. These will be a bellwether for important 2019 
Presidential elections. The last two elections there were 
contested, and there were allegations of electoral 
irregularities and fraud. The 2018 elections will be a test for 
the country's electoral tribunal to see how far they have come 
in recent years. Support for this tribunal, electoral 
monitoring, and greater civic engagement in the process is 
needed from now through next year's elections.
    In conclusion, as Latin America approaches a highly 
consequential year of elections, many things remain unclear. 
But what is apparent is that the direction of these countries 
will impact the U.S., especially on issues like the economy, 
immigration, and security. It is vital that Congress and the 
administration support efforts by our partners to ensure free 
and fair elections throughout the region and continue to work 
to strengthen transparency and the rule of law throughout Latin 
America. Support for improved governance, stronger democratic 
institutions and more active and coordinated civil society is 
needed to ensure that elected officials are able to address 
core challenges, such as corruption and rampant violence, in 
order to ensure that citizens can have faith in their 
democratic systems.
    Again, I am grateful for the opportunity to appear before 
this committee, and I look forward to your questions, thank 
you.
    [The prepared statement of Ms. Rimkunas follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
       
                              ----------                              

    Mr. Cook. Thank you very much.
    Mr. Svetlik, you are recognized.

 STATEMENT OF MR. MICHAEL SVETLIK, VICE PRESIDENT OF PROGRAMS, 
         INTERNATIONAL FOUNDATION FOR ELECTORAL SYSTEMS

    Mr. Svetlik. Mr. Chairman, ranking member and distinguished 
members of the subcommittee, on behalf my organization IFES, 
thank you for this opportunity to discuss the vital role of 
election management bodies in ensuring credible elections in 
Latin America in 2018.
    With generous backing from USAID and other international 
donors, IFES supports electoral processes worldwide. We are 
proud to work with our Consortium for Elections and Political 
Process Strengthening partners, IRI and NDI, to build strong, 
inclusive democratic institutions.
    Mr. Chairman, professional, transparent, and independent 
electoral institutions are the backbone of democracy. These 
bodies administer and oversee electoral processes that engender 
democratic stability, promote peace, and enhance social 
inclusion. Latin American electoral institutions were at the 
center of many successful democratic transitions over the past 
two decades, and they will play a critical role in the region's 
2018 election super cycle.
    Despite significant progress, Latin American democracy is 
at a crossroads, conditions are ripe for backsliding, largely 
due to a rise in disillusionment and a growing deficit of 
trust. As the 2017 Latinobarometro survey indicates, overall 
confidence in public institutions, including electoral 
tribunals, has declined since 2013. In fact, only 28, 29 
percent of Latin Americans express confidence in electoral 
tribunals, down from 51 percent in 2006. And, lastly, 15 
percent of those surveyed say they trust political parties. 
This low level of trust has been consistent over the past 
decade, falling from a high of 28 percent in 1997.
    In light of this crisis of confidence, professional and 
independent election management is increasingly important. 
Mexico, for example, has enjoyed considerable success in 
election management over the past two decades through 
investment in well-resourced, independent and professional 
bodies. We applaud Mexico for the strength and capacity of its 
institutions, particularly the National Electoral Institute and 
the electoral tribunal.
    However, Mexico still faces several challenges that are 
common to elections across the region. First, illicit money and 
campaign finance. The enforcement of campaign finance 
regulation remains a persistent Achilles heel and bears close 
watching. Next, elections are on trial, election arbiters, the 
courts will be tested with both pre- and post-election legal 
challenges that will require rapid resolution.
    Next, cybersecurity and outside influence. The likelihood 
of cyber attacks varies across the region but looms as a 
potential threat. Worse still is every country's vulnerability 
to disinformation, which is equally as damaging. And, lastly, 
inclusive democratic participation as broad participation 
across society is critical as democracy is more resilient when 
more groups are represented.
    At the heart of each of these issues is citizen trust, and 
institutions and electoral results. Democracy only works if the 
people believe it is working, and electoral institutions are 
only effective if they win public confidence through 
transparency, accountability, and responsiveness. Electoral 
management bodies can build trust through such things as 
transparency in budgeting and procurement, through professional 
communication and strong presence on social media, through 
clear and accessible voter education, through consistency in 
results tabulation and transmission, and finally the timely 
release of election results through--and clear systems to 
address any election complaints.
    More broadly speaking, Mr. Chairman, we ask you to consider 
the following for future assistance and engagement. We deeply 
appreciate Congress' support of robust funding levels for 
democracy programs and encourage you to leverage your oversight 
role in ensuring that appropriated funds are both obligated and 
spent.
    The U.S. Congress and the administration must unequivocally 
denounce efforts to erode fundamental democratic norms.
    I thank you, Mr. Chairman, for your December 21st statement 
on the Honduran elections which expressed disappointment in 
irregularities but called for all parties to seek relief 
through established election-dispute mechanisms. We recommend 
as well that election assistance should start early and 
continue through the post-election period to allow for flexible 
and responsive programming. Multiyear, multi-election programs 
are the most impactful.
    And, lastly, we recommend targeted support to improve 
electoral leadership, like facilitating peer-to-peer exchanges 
to build professional experience and spread best practices.
    Mr. Chairman, thank you for this opportunity to testify. 
Two thousand and eighteen will be an important test for 
democratic institutions in Latin America. IFES remains 
committed to working with our partners and our friends in the 
region to promote continued democratic consolidation. I look 
forward to any questions you may have.
    [The prepared statement of Mr. Svetlik follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    
                                  ----------                              

    Mr. Cook. Thank you, sir.
    Mr. Swigert, you are now recognized.

  STATEMENT OF MR. JIM SWIGERT, SENIOR ASSOCIATE AND REGIONAL 
   DIRECTOR, LATIN AMERICA AND CARIBBEAN PROGRAMS, NATIONAL 
                      DEMOCRATIC INSTITUTE

    Mr. Swigert. Mr. Chairman, Ranking Member Sires, 
distinguished members of the subcommittee and committee, thank 
you for the opportunity to appear before the committee. Today, 
I want to highlight the stakes for the region and the United 
States of safeguarding the integrity of elections in Latin 
America's packed 2018 election season.
    We often hear that sound elections are an essential but 
insufficient condition for democracy. Unquestionably that is 
true. The converse is also important: Bad elections are 
catalysts for instability. In 2018, as two of every three Latin 
Americans head to the poles, the resilience and stability of 
democracies across the hemisphere will be put to the test. 
While democratic advances are ongoing--Argentina, for example, 
is working to boost transparency and improve governance--public 
confidence in democratic institutions is in decline. Exposure 
of far-reaching corruption networks has angered publics and 
damaged trust in leaders and institutions. Political 
polarization is on the rise. As Chairman Cook said, the stakes 
are high. Upcoming elections are an opportunity to rebuild 
confidence and strengthen political legitimacy across the 
region. Failed elections would damage governance and set back 
hemispheric cooperation on solutions to shared challenges of 
economic growth, trade, drug trafficking, migration, and 
addressing the crisis in Venezuela.
    This year's elections are likely to be contentious. As seen 
in questioning of many recent elections, challenges to 
electoral integrity, some familiar, some new, are becoming more 
pronounced in the region. Problems include efforts by some 
political leaders to curtail the independence of electoral 
authorities, twist rules to their favor, and use courts to 
restrict political participation, infusions of illegal 
political financing, including from narcotraffickers, and the 
growing use of disinformation along with hacking for political 
ends.
    Democracy activists committed to safeguarding elections 
need to step up efforts to address these challenges. The United 
States and other regional and international actors can help by 
directing diplomatic support and resources to build national 
capacities both to conduct and monitor elections, and for 
international election observation, which can reinforce the 
efforts of the national actors.
    NDI's experience has shown that both international and 
national election monitors have key roles to play. Nonpartisan 
citizen observers, active throughout the region, and leaders 
within the global movement to defend the integrity of elections 
build additional trust and credibility. They also underscore 
local ownership of electoral integrity issues.
    Proven lines of action to safeguard elections include 
independent, statistically based monitoring of the election day 
processes and election results verification, commonly referred 
to as parallel vote tabulation, PVTs, or quick counts; 
international networks for solidarity and assistance to citizen 
election monitors; norms and standards for elections, like the 
open electoral data initiative that NDI helped to launch; 
youth-engagement programs; and building bridges between 
citizens and officials to prevent election related violence. 
Democratic elections are today the norm for the Americas, but a 
handful of exceptions exist, Cuba the most glaring one. 
Venezuela is another. There, a new Presidential election is 
constitutionally required this year. Under what conditions the 
election will take place, if at all, is uncertain. Given the 
way the Maduro regime has dismantled democracy and trampled on 
the rule of law, stepped-up international pressure for improved 
election conditions is essential if the Venezuelan people are 
going to have a say in determining their country's future. The 
United States should also not lose track of unresolved 
electoral integrity issues. In Central America, for nearly a 
decade, Nicaragua's electoral process has been characterized by 
opaqueness and deliberate restriction of political competition. 
The scope of irregularities in Honduras' recent flawed 
elections has cast a cloud over the legitimacy of the process 
and could generate serious instability if unaddressed. Steps 
are needed to enact a robust series of overdue electoral and 
political reforms.
    International support for improved democratic governance 
should not stop after election day. Ongoing efforts to 
strengthen democratic institutions are needed so that 
legislatures, political parties, and governments can better 
address priorities of improved citizen security, economic 
growth, and reduced corruption. This serves the interest of 
countries in the region and ultimately the foreign policy of 
the United States.
    Thank you for the opportunity to share my views with you 
today. I look forward to your comments and questions.
    [The prepared statement of Mr. Swigert follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
     
                              ----------                              

    Mr. Cook. Thank you very much, sir.
    I am going to forego my questions to the end. We have a 
number of members who are eager to ask questions, and I am 
going to ask mine at the end. So I hope they will remember my 
generosity and kindness. And I am going to turn it over to 
ranking member, Mr. Sires. You are recognized.
    Mr. Sires. Thank you, Mr. Chairman. I hope you get to ask 
your question and we don't have to go and vote.
    Thank you very much for your comments.
    National Security Advisor McMaster said there is already 
evidence that Russia is meddling in the Mexican election set 
forth in July. What can the Mexican Government do to ensure the 
integrity of their election and prevent interference from 
foreign governments? To your knowledge, is there any 
government--is the U.S. Government engaging with the Mexican 
Government to convey some of the lessons we learned here? Just 
wondering if anybody----
    Mr. Svetlik. Thank you, Ranking Member Sires, for your 
question. As I mentioned in my oral remarks, Mexico is very 
lucky to have a very well-resourced and robust election 
administration and electoral tribunal to address the 
administration of the elections. My understanding of the 
comments that Security Advisor McMaster has made relating to 
the disinformation, the spread of information, not necessarily 
the intrusion of the election--the system of elections. Mexico 
votes with a paper ballot, and it creates an auditable paper 
trail for the elections. So there is little vulnerability to 
the type of intrusion that might be presented by a 
disinformation campaign.
    Now the electoral authorities do monitor very closely, they 
have a public financing system for elections and monitor very 
closely the use of media by the political parties and 
candidates. And there is a special department within the 
National Electoral Institute to do that. To my knowledge, I 
don't have knowledge of the sharing of information, but I do 
think that is incumbent upon the United States to share its 
knowledge and experience to help Mexico defend itself.
    Mr. Sires. Would you say that Mexico has strongest has the 
election system in the Western Hemisphere?
    Mr. Svetlik. If not the strongest, one of the strongest. It 
has made tremendous strides over the past three decades since 
the reforms in the early 1990s, and it has a budget of $1 
billion and thousands of employees across the country that 
manage the centralized system.
    Mr. Sires. Now, since there is no chance of having a free 
and fair election in either Venezuela or Cuba, what can 
countries in the region and organizations like yours and civil 
organizations and civil societies do to try to help and improve 
the situation on the ground?
    Mr. Swigert. Thank you, Congressman Sires, for that 
question.
    I think we need to be clear: There are no elections taking 
place in Cuba. This is a completely different process. And I 
think organizations such as ours need to continue supporting 
very courageous democracy activists, independent civil society, 
Cubans who are seeking to connect with like-minded activists 
around the world, highlight the situation inside the island and 
get greater information and skills on how to make the case for 
a democratic future inside Cuba. There are a number of 
initiatives that are underway.
    With regard to Venezuela, I think that it is absolutely 
important to continue the support for the democratically 
elected national assembly and to highlight what are the 
conditions for these upcoming elections, if these elections 
take place at all. I think that international pressure and 
pressure from Europe, Latin America, as well as the United 
States, continued pressure from the OAS, highlighting the 
conditions and pressing for changes can help. Obviously, it is 
a decision of those inside Venezuela whether they want to 
participate in this process or not.
    Mr. Sires. What is the big stumbling block between the two 
opposition parties coming together in Venezuela?
    Mr. Swigert. I think there is a debate that takes place all 
the time in authoritarian societies like Venezuela where they 
hold election processes that are unfair, under circumstances 
where there is no fair competition and possibility of outright 
fraud, as to whether to participate, whether this is an 
opportunity to mobilize supporters and highlight the 
deficiencies of the regime, and that debate continues today.
    Mr. Sires. Thank you.
    Mr. Cook. Thank you very much.
    Congresswoman Ros-Lehtinen.
    Ms. Ros-Lehtinen. Thank you so much, Chairman Cook. And I 
want to point out that Mr. Eddy Acevedo is in the audience. He 
is our former staff director for our Middle East and North 
Africa Subcommittee. And he is now--listen to this fancy 
title--Deputy Assistant Administrator and Chief Legislative 
Strategist for the U.S. Agency for International Development. 
It started here, and it went all the way to the back. They 
couldn't get it all in there.
    Welcome, Eddy.
    Mr. Chairman, I wanted to ask the panelists about Colombia 
and the peace process and what will happen to the FARC. Will 
they run for office, et cetera. I have long been critical of 
aspects of the peace agreement with the terror group, FARC. And 
particularly I have opposed allowing FARC members to run for 
political office. But under the current agreement, the 
Colombian House and the Colombian Senate have guaranteed the 
FARC five seats in each Chamber and any of them can run for 
President. I believe that we have a moral obligation to the 
victims of the terror the FARC, and allowing the FARC to hold 
power in Colombia's Government before justice is served is just 
plain wrong. But whatever your views on that, it is already a 
done deal.
    Is it possible do you think that the FARC could be using 
its illicit profits from its narcoterror activity to fund any 
electoral campaigns? Are you monitoring that? Have you heard of 
any problems? Are there any indications that the FARC could be 
using fear and intimidation tactics in order to undermine the 
democratic process to its advantage?
    Ms. Rimkunas. Thank you very much for the question. In the 
conversations that we have had with local partners in some of 
these more rural areas and post-conflict zones, there is a fear 
that the FARC does have increased control and increased 
influence, whether it be monetary or just with fear over some 
of the electoral processes, including the candidates. And while 
they themselves may not necessarily be running candidates under 
the FARC new party, they may be influencing some of the 
candidates running for office. And it is I think a fear that is 
shared among not just the local partners but others observing 
the election and something that we are looking closely. We 
don't have any official programming that is taking a look at 
that right now, although I think that is an excellent 
recommendation.
    Ms. Ros-Lehtinen. Well, thank you for putting it on your 
radar.
    I wanted to ask about the double standard when it comes to 
the OAS. In Honduras, the secretary general took it upon 
himself to ask for new elections while its own electoral 
observation mission and the European Union mission did not come 
to the same conclusion. Conversely, in Nicaragua, the OES 
electoral observation mission stated, ``The mission received 
219 complaints that were forwarded to the Supreme Electoral 
Council.'' But the council is led by Roberto Rivas, who was 
just recently sanctioned by the U.S. for human right 
violations, for corruption, you name it. So, in Nicaragua, the 
OES is asking the inmates to run the asylum, but in Honduras, 
the secretary general is seeking new elections.
    Do you share any concerns about this double standard, and 
how do we make sure that there is a more uniformed response at 
the OAS for these kinds of problems?
    Mr. Swigert. Thank you, Congresswoman, for the question. I 
think the question of double standards has always come up with 
regard to international responses to elections. Election 
observation is a tough job, and it is not unusual that you 
might find some differences between European Union 
international observations and OAS international observation 
groups. I think the important thing is to press--to look at 
where we are right now--and to press for improvements in both 
countries. I think, as I pointed out in my testimony, there are 
serious deficiencies in the case of the electoral system in 
Nicaragua. And the irregularities that occurred in the Honduras 
election, about which both the OAS and EU agreed, were severe. 
So what to do? I think that there is a need to move forward on 
political and electoral reform. There are some proposals out 
there, for example from the conference of bishops inside 
Honduras, to convene a constituent assembly. President 
Hernandez has called for a dialogue. Clearly, steps have to be 
taken to remove this cloud over the election.
    Ms. Ros-Lehtinen. Thank you very much all of you.
    And thank you, Mr. Chairman.
    Mr. Cook. Thank you very much. Thank you.
    Congresswoman Torres, you are recognized.
    Mrs. Torres. Thank you, Mr. Chairman. Building on some of 
the questions that have already been asked. I want to thank the 
panel for being here. I very much support your work and admire 
the work that you do internationally.
    In regards to Honduras and the work there of the OAS, in my 
opinion, the State Department failed us miserably, head-in-the-
sand type of attitude when they certified Honduras for U.S. 
assistance while they were in the middle of figuring out what 
to do with their election process. So, at this point, what is 
the U.S. policy in supporting the OAS? I mean, do we continue 
to align ourselves with the work that they do, or do we not?
    I have had an opportunity to meet personally with people 
that were on the ground and election observers. It is alarming 
to hear directly from them the processes that took place, how 
the computer systems went down, and how a very different 
candidate who was scheduled to lose came up winning after the 
computer system came back live and many other issues that they 
have identified. So I am curious to hear your opinion with your 
backgrounds as to, what do you think, where is our positioning 
with OAS?
    Mr. Svetlik. Thank you for your question. Speaking from my 
organization's perspective, we have enjoyed a very productive, 
collaborative relationship with the OAS and its observation 
efforts and its technical cooperation missions, as well. We are 
currently not active and have not been for the past couple of 
years in Honduras. So it is difficult for me to speak directly 
to that experience.
    I do think, however, and I would say generally in response 
to the previous question about the U.S. observation efforts, 
they do provide a clear and concise document or documentation 
of what happened in the electoral process upon which 
organizations like ours can clearly address then the issues 
that others in the community, the domestic civic community----
    Mrs. Torres. What are the implications, though, for the OAS 
observation missions, in the upcoming elections, and obviously, 
we did not support them in their positioning of this election. 
What did we learn there?
    Mr. Svetlik. I think we learned, as was mentioned, how 
difficult the job of observation can be in terms of evaluating 
the election in real time. As you pointed out, the prolonged 
tabulation or vote count process or the interrupted vote count 
process was extremely problematic, and we live in a world where 
we are expected to get an immediate result, an immediate 
evaluation of the process, and making the job of election 
observation even more difficult.
    Mrs. Torres. Mr. Swigert, in your testimony, you note that 
one of the main concerns with elections in our hemisphere is 
illegal political financing from narcotraffickers. We talked 
about FARC in Colombia, for example. They mostly dealt in cash, 
and there hasn't really been a true accountability of how much 
cash they may still be hanging on to. So, aside from Colombia, 
what other countries in particular where this could be a 
problem, and is there anything that we can do to help those 
governments identify those types of problems?
    Mr. Swigert. Thank you, Congresswoman, for the question. I 
think, unfortunately, there is a fairly extensive list of 
countries where this is a problem. It starts from Mexico and 
goes south. And I think any country that has been a country of 
production or transit is susceptible to this sort of 
corruption. It is most severe, in my experience, from what I 
have heard from partners on the ground, coming from all 
political perspectives at the local level. And the response has 
to be a response taken by the local government institutions, in 
the first case to pass legislation on political finance, to 
require candidates and officials to disclose what resources 
they are receiving and from where, and there are a variety of 
approaches that have been taken in the hemisphere.
    We have been trying to work with political parties directly 
on trying to help exchange information on how to choose 
candidates because what we have found is party leaders 
themselves oppose illicit financing getting into politics.
    Mrs. Torres. Thank you. And I yield back.
    Mr. Cook. Thank you very much.
    At this time, I am going to recognize the gentleman, the 
Congressman from Florida again, what a surprise, Mr. Ted Yoho.
    Mr. Yoho. Thank you, Mr. Chairman.
    I appreciate it. I appreciate the panel being here. Let me 
see where to start.
    Twelve elections in nine countries this year. Russia is 
really going to be busy. You know, I hope Putin is ready for 
that.
    But, seriously, you know, the threat of challenging 
democracies--and as Gregory Meeks brought up, democracy is 
being challenged. And we believe in a certain type of democracy 
here, having a constitutional republic that goes through a 
democratic process to vote. We know the value of that. We have 
got a 200-plus year experience in that process. And we know 
that value. And it is more about the idealisms of America that 
we cherish so much and I think that a lot of the world wants. 
And when I look at what is going on in Latin America, from 
Mexico south, when I see what is changing down there--and as 
you, Mr. Svetlik, brought up, the citizens are losing 
confidence in the electoral process, for one thing. They are 
losing confidence in their governments due to corruption and 
the lack of the electoral process. Therefore, democracy as we 
experience in this country is dropping. You know, people are 
kind of confused, do they really want that.
    And then I look at the amount of aid we have put in there 
with USAID--and I am glad Eddy is here with USAID--if you look 
at Mexico, there is $59 million for good governance to combat 
corruption, for civil society; $12 million in Colombia; $4.8 
million in Venezuela; $11 million in Cuba. What is your 
experience on that money that we, as legislators, are spending 
of American taxpayers' money? What is the benefit of that that 
you see if we are seeing the slide kind of going down?
    Let's start with you, Mr. Svetlik.
    Mr. Svetlik. Thank you for your question. The investments 
that are being made, we appreciate very much the funding that 
is made available through USAID to help us in engaging in these 
issues. The investments are, I think, important to make in part 
because of the cautionary word that my colleague made regarding 
bad elections and the backslide, further backsliding that can 
take place. We are, in many cases, facing some third generation 
issues in many of these countries that are difficult to solve, 
that require persistent and consistent attention, working to 
build systems that are responsive, giving citizens the 
information to address their issues, to address these issues 
themselves. But it is an effort that I think, over the long 
term, pays dividends. It is something that needs to be 
maintained.
    Mr. Yoho. Ms. Rimkunas.
    Ms. Rimkunas. Thank you for the question.
    If I may, the support going to these countries is showing 
dividends. It is showing impact and results. And we hear that 
from, and we see that from, our partners and the beneficiaries. 
One aspect I think that is feeding into this, into kind of the 
distrust and decrease in the belief of democracy, is really the 
dissatisfaction with the political establishment and weak 
political parties throughout the region. This is something that 
our funding hasn't necessarily been focused on over the last 
few years. We don't--at least I can speak from IRI and I know 
some other institutes--our political party work, which used to 
be our bread-and-butter work really has weakened, and it is 
very, very minimal in the region. And this, I think, to a 
certain degree, speaks to the weaknesses of political parties 
throughout the region and distrust in them.
    Mr. Yoho. Well, and that is the important thing about a 
system that has a democracy because that is the only way a 
civil society can change politics. If we go the other way--and 
there are so many places that have sham democracies. You know, 
I chair the Asia and the Pacific Subcommittee on Foreign 
Affairs. And we look at Cambodia. This country has invested 
$1.7 billion in good governance. But, yet, when you have 
somebody like the leader of Cambodia or Venezuela that outlaws 
your political opponents and then says we are going to have 
free and fair elections, it is not working. So is there 
something else we should focus on from our country to bolster 
the outcome of these elections? Not interfere, but bolster the 
alliance with that country to boost the confidence of the 
citizens and make a strong relationship with America?
    Ms. Rimkunas. Sure. I think a lot of the issues that are 
going to be at the forefront of a lot of the voters' minds for 
the elections are longstanding issues that are present long 
before elections and will be present long after elections. And 
these are some of the areas where our assistance would be good 
to focus on. Particularly, as I discussed, and I think all of 
us see, some of the governance.
    Mr. Yoho. I am out of time. You hear that rapping? So I 
appreciate your time.
    Mr. Chairman, thank you.
    Mr. Cook. Thank you very much.
    I would like to recognize the Congresswoman from Illinois, 
Ms. Kelly.
    Ms. Kelly. Thank you, Chairman Cook and Ranking Member 
Sires. Thank you to the witnesses.
    I wanted to know, what affect do you think the 
renegotiations of NAFTA are having on the Presidential election 
in Mexico? Anybody?
    Mr. Swigert. Well, I might start. I haven't been following 
the campaign on a day-to-day basis, Congresswoman, but I think 
economic issues are very much on everyone's mind. Corruption is 
another top issue, along with the question of insecurity. But I 
think the focus has been more internal, in all the reports I 
have read about the campaign to date, that relations with the 
United States loom large in Mexico, but people are focusing on 
politics at home at this stage.
    Ms. Rimkunas. And I would also add that, at this point--and 
it is still fairly early, we are starting the pre-electoral 
period--NAFTA itself is not particularly at the forefront of 
voters' minds. But, as my colleague said, the economy, the U.S. 
relations with Mexico, corruption, those are the major issues 
that are really, at this moment, driving the election. Now, 
there is still plenty of time. And I am sure that, you know, 
that will change as the elections are closer.
    Mr. Svetlik. From a different perspective, our 
institutional relationship with Mexican authorities is strong, 
continues to be strong. There has been no impact.
    Ms. Kelly. And what about any conversation about the wall? 
Does that come up at all? Or is that worrisome to anybody?
    Ms. Rimkunas. I can speak of our conversations with our 
partners. Again, the focus is on those major issues. And that 
is really what voters are looking to.
    Ms. Kelly. Okay.
    The other question is about transparency. You know, my 
colleague talked about the money USAID has given to Mexico. And 
it looks like we want to lessen that amount of money. But there 
have been complaints about fairness. And we have Andres Manuel 
Lopez Obrador has complained about election irregularities in 
his losses. So, you know, what can we do to help with election 
certification, or is there anything that we can do to help in 
that arena?
    Mr. Svetlik. Thank you for that question. I recently, this 
summer, attended a conference in Mexico City on electoral 
integrity in which the Foreign Minister made a very strong 
invitation for increased electoral observation and involvement 
of election organizations such as ours. And I think, while the 
elections are only 7 months away, it would be timely for there 
to be funding available so that we could engage in those 
activities.
    Ms. Rimkunas. And in our conversations with the INE, the 
National Electoral Institute, they have requested, again, 
international observation missions as well as post-election 
support to enhance legitimacy. One thing that they have also 
mentioned during our conversations is their concern with 
disinformation. And this goes back to the question that you 
had, Congressman Sires, about the disinformation in Mexico. 
They are concerned about some of the disinformation that 
occurred around the 2017 gubernatorial elections where there 
was a lot of publicity out in YouTube via videos and so forth 
trying to discredit their PREP system, which is INE's fast 
count and vote tendency system which, you know, some candidates 
used as a talking point. So they are looking to strengthen the 
trust from citizens in the process.
    They also shared with us that they have detected some 
hacker attacks from foreign servers. They did not share from 
where. So I can't confirm at this point from where that is. And 
they have also detected that some of these videos that went 
viral went viral through a coordinated system of foreign 
servers like an attack. But, again, no information was shared 
as to where that came from.
    Ms. Kelly. Thank you.
    Mr. Swigert. Just to add, very quickly, that this concern 
over disinformation also exists in Brazil, and we have been 
consulting with the Mexican electoral authorities on bringing 
civic groups from Brazil together with Mexicans to talk about 
how they could track and deter and counter any disinformation. 
The concern is not just external. It may be internal sources as 
well.
    Ms. Kelly. Thank you very much.
    And I yield back.
    Mr. Cook. Thank you very much.
    At this time, I would like to recognize Congressman Rooney 
from Florida.
    Ms. Ros-Lehtinen. Florida. Wow.
    Mr. Cook. What a surprise, Florida, once again.
    Mr. Rooney. Thank you, Chairman Cook.
    I would like to ask a couple of questions about the FARC 
deal, maybe Ms. Rimkunas, a little bit, start with that, if 
anyone else wants to comment. You know, it is not off to a very 
good start with the hectare buying program having the 
unpredictable consequence of generating an increase in coca 
production, which is affecting Panama and a lot of other 
Central American countries. So my concern about the FARC deal 
is the granting of political power without them having to earn 
it. Now we have Timochenko in the election. And I have been 
thinking a lot about what happened with the FMLN. And you all 
are really smart, smarter than me. I would like to be 
interested in if you think that is a reasonable analogy to be 
worried about given where we are with Sanchez Ceren right now 
having given the FMLN power many years ago.
    Ms. Rimkunas. The test for the FARC will be--and this is 
where these elections, especially the congressional elections, 
will be really important to watch, as to whether they can reach 
those ten seats on their own. They are guaranteed 10 seats, 5 
in the House and 5 in the Senate. That doesn't mean that they 
are going to reach them on their own, meaning that they are 
going to get enough votes to get those seats. So, regardless of 
the amount of votes that they get, they will be given those 
seats. But, again, it will be----
    Mr. Rooney. That is the problem.
    Ms. Rimkunas. Correct. But, again, it will be a test to see 
whether they have that base of support. And, again, through the 
2026 elections, whether that base continues to support.
    At this time, the overwhelming majority of Colombians do 
not have a favorable view of the FARC and don't support their 
transition into a political party. So, again, I think that that 
is something that we will continue to watch.
    Mr. Rooney. Any other comments?
    Mr. Swigert. Congressman, I would add that, going back to a 
point that was raised earlier about a concern of the victims 
inside Colombia, the victims of conflict, there are new 
transitional districts that have been set up that will allow 
citizens' groups and victims' groups to elect Members of the 
Congress under the terms of the peace agreement. I think that 
is an area to keep an eye on. It provides an opportunity, an 
opportunity to increase the voice of those who have been abused 
under this conflict. And it is an area where we and IRI have 
looked for ways to help improve the voices of the victims in 
the political system.
    Mr. Rooney. If I might, one more, the last minute or 2 
here, is I remember working on the AMLO situation in 2006 with 
your boss, Dan Fisk, who is a great guy--and please tell him 
hello--and I just wonder if any of you all would like to offer 
any kind of comment on what the high potential right now, or 
certainly potential, of AMLO winning in Mexico might bring to 
the United States-Mexico relationship?
    Ms. Rimkunas. Well, AMLO is certainly leading in the polls 
right now, though I would say that polling has been uncertain 
in the region. So, again, there is a lot of time left before 
the elections and a lot of things still to be decided in terms 
of the candidates running.
    Right now, as you are all aware, AMLO has become much more 
moderate. He has become much more centrist, in terms of the 
economy, he wants to keep things moving. He wants to keep the 
Central Bank at the forefront of that. So he is trying not to 
alarm not just his domestic audience but also his international 
audience and really has distanced himself from his previous 
friends in the region and really tried to play it straight.
    So it is a question, that we are looking at closely is 
exactly if he does win, where his positions would, at the end 
of the day----
    Mr. Rooney. Yeah. Which AMLO is going to show up after he 
wins?
    Ms. Rimkunas. Yeah. At this time, I don't think we can be 
certain of that.
    Mr. Rooney. Okay. Well, thank you very much. I yield.
    Mr. Cook. Thank you very much.
    I will now recognize Congressman Meeks from New York.
    Mr. Meeks. Thank you, Mr. Chairman.
    Also, let me just start by just saying to Ms. Rimkunas, I 
left out the great work that IRI does in complement to--I 
mentioned NDI--and Mr. Svetlik. I really appreciate your 
testimony because you do magnificent work in trying to help 
promote democracy. And I feel that we are challenged right now. 
And hereis what we are trying to convey in my opening 
statement. Institutions--and that is what you are trying to 
help create--because that is the bedrock of democracy. Without 
institutions that are working and operating, then we cannot 
have democracy. And when I think of Latin America, especially 
back in the eighties, when we just had military coup after 
military coup, with no institutions, and thereby the voice of 
everyday people not getting to be heard. You know, and from my 
background, being here in the United States, I can remember 
stories of my dad talking about him not having the ability to 
vote. He had to count how many jelly beans was in a jar, in a 
democracy, in the United States of America that we still--but 
it is a work in progress.
    So we have progressed past the discriminations and 
preventing individuals. We have improved our judicial 
institutions because it was our Supreme Court that, in Plessy 
v. Ferguson, that said separate but equal was the law of the 
land. Those institutions and how we put people in place, and we 
are trying, in our democratic societies, to be a more perfect 
union and to become better. But these democracies--even ours is 
being challenged today--whether it is by cybersecurity, as 
Russia is doing in Latin America. They have done it here in the 
United States, doing it in Europe, trying to undermine our 
institutions. And what your organizations do is trying to 
strengthen our institutions. And I thank you for it because 
that is how we preserve democracy and give those who have no 
voice a voice.
    I could not be prouder of the people of Venezuela who are 
standing up and demanding that their voices are heard. It 
reminds me of people in the streets of New York and other 
places when we did the same. And what you are doing--and we do 
all need to call out when they are trying to--the government, 
to keep people and those voices from being heard. I would 
really hope that the opposition leaders come together because 
that hurts when the opposition is fighting one another and not 
coming together to try to make sure that there is real voices 
by all of the people, which I see is lacking to a degree. But 
what you are doing in trying to help and strengthen 
institutions in Venezuela and other places is what is 
important, as opposed to saying we are just not going to do 
anything.
    So my question, then, is--because I do believe in 
multilateral cooperation. And the only multilateral 
organization that I know that is working is the OAS right now. 
And they have a louder voice. What can we do to protect the--
you know, to help OAS? And what role can they play in 
strengthening democratic elections and democratic institutions? 
How can we get, you know, those--I think one of my colleagues 
talked about how Peru and Colombia and Argentina now are doing 
better. How can we get them also to work in a collaborative way 
with us where those places--where those institutions are 
backsliding, those that are working, so we can work 
collectively to making changes and making a difference so we 
can have institutions and have democracy continue and not go 
back to the eighties where you have coup d'etat after coup 
d'etat? Anyone?
    Mr. Swigert. If I might respond very quickly, Congressman. 
I think multilateral initiatives and multilateral institutions 
are very helpful at this moment. The OAS is one, strong support 
for the Inter-American Commission on Human Rights is critical, 
and there are other groups that are active throughout the 
region.
    On Venezuela, there are homegrown initiatives. There is the 
Lima Group of many governments that has stepped forward and to 
be strong voices in support of democracy in Venezuela. So I 
think it behooves the United States to find ways to support 
that process.
    When it comes to some of the other challenges that 
democracy faces, I think we need to bear in mind, as you said, 
this is a moment, and democracy is a process. And it is a 
process, as I hear from friends in the region, that has its ups 
and downs. But there is no better process.
    I think, when it comes to the case of Brazil, we need to 
bear in mind that the corruption scandals are moving forward 
because of the strengths of judicial institutions. And that is 
necessarily a consequence of one of the pillars of democracy. 
So I think we have to look for ways to strengthen institutions, 
as you say.
    Ms. Rimkunas. And, if I may, long-term support for these 
democratic institutions is crucial beyond the elections. I 
think citizens see democracy and government work at the local 
level with their mayors, with their city councils. That is 
where they can feel it. That is where they can touch it, 
especially those that are outside of the capital. Especially in 
countries like Colombia, there are still a lot of populations 
out in the rural areas that don't necessarily and are not 
connected with their central government. And so, when they hear 
about the scandals and the issues happening, reinforcing these 
institutions at the local level is vital. Thank you.
    Mr. Cook. Thank you very much. I feel like I am back in a 
classroom again.
    Speaking of that, in grad school, I always remember they 
used to quote Bismarck. And I think they were talking about 
making laws and policies--of all people, Bismarck, right? If 
you know your history. And there will be a test after this 
hearing. And he said it was--and it is almost analogous to 
this. Democracy, it is like watching people make sausage. It is 
not a very pretty process. And I am paraphrasing, probably 
incorrectly.
    But this hearing here, we are talking about a very, very 
difficult subject. It is one which I personally think we, as a 
country, have ignored, Latin America in particular, and for a 
variety of reasons. And I think some of these things that have 
happened in the past we can be a much better neighbor. I am not 
talking about being a big brother or a big sister but 
somebody--an equal partner instead of having that arrogance 
when dealing with some of these countries. But that is my 
personal opinion.
    Just one other final piece of business. I am not going to 
bore you. But I do support the decision to recognize President 
Fernandez in Honduras. I hope that they will implement the 
recommendations of the OAS and the EU.
    And one of the things I have been talking about, we want to 
see the lessons learned. Hopefully, in the spring, we would 
like to--I am going to be soliciting for people that want to go 
to Honduras, and some of the other countries, maybe Guatemala 
down there. But if we go to Honduras, the only pre-qualifier is 
there will be a test, and you have got to spell Tegucigalpa 
correctly. I know you are all capable.
    So, anyway, once again, I want to thank the panel for your 
patience. We had a lot of people, a good turnout, everything 
else. And with everything that was going on, I am glad we got 
this done because of votes. And you know how crazy it is. So, 
once again, thank you for your expertise and your patience in 
dealing with us. And, with that, there being no further 
business----
    Ms. Ros-Lehtinen. No other Floridians?
    Mr. Cook. No, there are seven or eight or nine of them 
left. This subcommittee is adjourned.
    [Whereupon, at 3:26 p.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
         
         
         
         [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

         
  

                                [all]
</pre></body></html>
